No. 20-542
INTHE

~upreme QCourt of tbe mniteb ~tatet,
REPUBLICAN PARTY OF PENNSYLVANIA,

Petitioner,
v.

KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS
PENNSYLVANIA SECRETARY OF STATE, ET AL., and
PENNSYLVANIA DEMOCRATIC PARTY

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Consent to Motion of Donald J. Trump for President, Inc. for
Leave to Intervene as Petitioner, in Republican Party of Pennsylvania v. Boockvar,
No. 20-542, was served via overnight mail on all parties required:

CONSTITUTIONAL LITIGATION AND
ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave. NW, Suite 200
Washington, D.C. 20006
(202) 546-8890
jsekulow@claglaw.com

John Bartley DeLone
ATTORNEY GENERAL'S OFFICE
Pennsylvania Office of Attorney
General - Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 783-3226
jdelone@attorneygeneral.gov

Counsel for Movant

Counsel for Respondent Kathy Boockvar

Jay Alan Sekulow

Counsel of Record

Donald B. Verrilli Jr.
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
(202) 220-1101
donald.verrilli@mto.com

Joseph Matthias Cosgrove
SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704-0000
(570) 287-2400
jmcosgro@msn.com

Counsel for Respondent
Pennsylvania Democratic Party

Counsel for Respondent
Luzerne County Board of Elections

Jason Brett Torchinsky
HOLTZMAN VOGEL JOSEFIAK
TORCHINSKY PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
(540) 341-8808
Jtorchinsky@hvjt.law

Counsel for Petitioners
Joseph B. Scarnati, III, et al.

I declare under penalty of perjury that the foregoing is true and correct.

Date: November 5, 2020

